Audit of the Follow up on Recommendation No. 3
   from Audit Report No. 4-621-98-005-F of
                        Operating Expenses


              Report No. 4-621-99-003-P

                   April




   REGIONAL INSPECTOR GENERAL/PRETORIA

                                                                  Memorandum

Regional Inspector General
        Pretoria




        DATE:                April

        TO:

        FROM:                Regional Inspector

        SUBJECT:             Follow up Review
                             4-621-98-005-F of                   Operating Expenses, Audit
                             Report No. 4-621-99-003-P


        This memorandum is our report on the subject audit. We have considered your
        comments on the draft report and have included them in their entirety in Appendix II.

        I appreciate the cooperation and courtesy extended to my staff during the audit.

        Background

        OMB Circular No. 50 and Office of Inspector General planning guidance require a
        periodic follow-up review of selected previously closed audit recommendations. Among
        the factors considered for selection is that the recommendation may have been closed
        based on the Mission’s assertions that corrective action was either completed or
        substantially complete.

        Accordingly, we selected one closed audit recommendation for a follow-up review from
        the Audit Report No. 4-621-98-005-F, “Audit of                             Operating
        Expenses.”

        “Recommendation No. 3: We recommend that                         review the nine
        unliquidated obligations totaling $65,842 listed in Appendix III and deobligate
        excess funds.”

        In its response to the audit report, USAID/Tanzania agreed to deobligate all nine of the
        obligations listed in Appendix III. In addition the Mission stated that it would conduct
        quarterly reviews of its unliquidated obligations in the future and deobligate any excess
        funds.
Based on the above response, RIG/Pretoria determined that USAID/Tanzania had
satisfactorily addressed the above recommendation and had reached a management
decision thereon. Subsequently, the Office of Management Planning and Innovations,
Bureau for Management closed this recommendation on the basis of documentary
evidence furnished by the Mission.

Audit Objective

RIG/Pretoria conducted an audit in accordance with generally accepted government
auditing standards to answer the following question:

Did                take effective corrective actions to justify closure of
Recommendation No. 3 of Audit Report No. 4-621-98-005-F, titled “Audit of
                Operating Expenses,” issued by RIG/Pretoria on February 26,


Appendix I describes the audit’s scope and methodology.


Audit Finding

Did                take effective corrective actions to justify closure of
Recommendation No. 3 of Audit Report No. 4-621-98-005-F, titled “Audit of
                Operating Expenses,” issued by RIG/Pretoria on February 26,


Based on our review, USAID/Tanzania took effective corrective actions to justify closure
of Recommendation No. 3, Audit Report No. 4-621-98-005-F, titled “Audit of
USAID/Tanzania’s Operating Expenses,” issued by RIG/Pretoria on February 26, 1998.

A review of the obligation documents maintained by USAID/Tanzania showed that all
nine unliquidated obligations totaling $65842.00 were deobligated subsequent to the
audit.

In addition, The Mission Controller reviews the obligations on a quarterly basis in order
to identify and deobligate excess funds.

Management Comments and Our Evaluation

USAID/Tanzania concurred with the audit report and thanked the auditors for the
cooperation they extended to the Mission staff during the audit.

This report has no recommendations. However, the Mission’s response is included in
total as Appexdix II.
                                                                           APPENDIX I




                            SCOPE AND

                          METHODOLOGY




Scope

We conducted our audit of the implementation s t a t u s o f
Recommendation No. 3 from the audit of USAID/Tanzania’s Operating Expenses. The
audit was performed in accordance with generally accepted government auditing
standards and was conducted at the Mission’s offices in Dar Es Salaam, Tanzania, from
March 9 through 12 of 1999.


Methodology

To accomplish our audit objective, we reviewed the Mission’s documentation relating to the
closure of the audit recommendations for the                        Operating Expenses
audit. We then reviewed the nine obligations totaling             listed in the appendix
to audit report number 4-62 1-98-005-F and traced them to the deobligating documents.
We also interviewed the Mission Controller and her staff to determine the current
procedures used to review, identify, and deobligate excess commitments.
                                                                                               APPENDIX II





                                   U.S. Agency For International Development
                                                        memorandum
                      April 14;

REPLY TO
ATTN OF:              Peter S.         Acting Controller
                                                       ss
                      Follow up Review on Recommendation No. 3 from
                      No. 4-621-98-005-F of      /Tanzania’ Operating Expenses, Audit

                      report No. 4-621-99-xXx-P


       TO:            Joseph            Regional Inspector General/Pretoria

                      RIG’s        dated March 23, 1999

    Mission has reviewed the draft audit report and is in agreement with the auditors’

 comments

 (a)                   deobligated all nine unliquidated obligations totaling
 included in the audit report of the Mission’s Operating Expenses issued by RIG/Pretoria on

 February 26, 1998.

    The Mission conducts quarterly reviews of its unliquidated obligations and
 any excess funds.


 I thank the auditors for the cooperation they extended to our staff during the audit.




                                                      STATES A.I.D. MISSION TO
